                                      TVA RESTRICTED INFORMATON




Memorandum from the Office of the Inspector General



December 13, 2012

Katherine J. Black, LP 3A-C

FINAL REPORT – EVALUATION 2012-14776 – REVIEW OF TVA’S LIVING
ALLOWANCE

As a result of issues with living-allowance benefits for Tennessee Valley Authority (TVA)
contractors, we initiated a review of TVA’s temporary living allowance to determine if
employees who received temporary living-allowance benefits from fiscal year
(FY) 2010 through FY 2012 met all TVA and federal eligibility requirements. We found the
employees tested during this review met all eligibility requirements.

BACKGROUND

From FY 2010 through FY 2012, TVA paid over $3 million in temporary living allowances.
Temporary living allowance is included in TVA’s relocation program, and eligibility for this
allowance is based on meeting policy requirements as well as management approval. If
approved, a new or transferring employee may receive financial assistance for temporary
living quarters for up to 120 days. TVA’s policy states that an employee will receive
$1,850 for the first 30 days and $1,550 for each subsequent 30-day period, which
combines for a maximum of $6,500. TVA uses a third-party vendor that provides
relocation services to handle the majority of the relocation process for the employee.

OBJECTIVE, SCOPE AND METHODOLOGY

We initiated a review of TVA’s temporary living allowance to determine if employees who
received temporary living-allowance benefits from FY 2010 through FY 2012 met all TVA
and federal eligibility requirements.

In order to conduct this review, we:

   Reviewed relevant federal regulations and TVA policies to determine eligibility criteria.
   Obtained the population of all TVA employees who received temporary living
    allowance payments from FY 2010 through FY 2012.
   Selected a judgmental and a random testing sample and tested to determine if
    employees met eligibility requirements.
   Interviewed TVA management.

This review was conducted in accordance with the Quality Standards for Inspection and
Evaluation.

      WARNING: ThIs document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
       distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
               is not to be further distributed without prior approval of the Inspector General or his designee.

                                      TVA RESTRICTED INFORMATION
Katherine J. Black
Page 2
December 13, 2012



FINDINGS

We found the employees tested during this review met all eligibility requirements. We
selected a sample of 581 of the 714 files2 from Relocation Services and checked each file
against the Federal Travel Regulations eligibility requirements and TVA’s relocation policy.

The primary requirements include:

1. Be either a new hire or a current employee transferring to a new duty station.

2. Have an original residence that is greater than 50 miles from his/her new duty station.

3. Sign a 12-month service agreement with TVA.

4. Sign a duplicate reimbursement disclosure statement3 if he/she received the benefit
   after August 2011.

5. Payment for a single living-allowance benefit is not to exceed $6,500.

Each of the employees reviewed met the primary eligibility requirements. Of the 58 files
reviewed, eight employees received more than the maximum amount of $6,500. We
reviewed the supporting data and found that (1) four employees received a living
allowance for two separate moves during the scope of this review; (2) one employee was
an executive who was approved for costs above the maximum amount, which is in
accordance with TVA policy; and (3) three employees received funds exceeding their
approved amount. TVA was previously aware of these three exceedances and had begun
collecting the funds prior to this review. Through discussions with TVA management, we
determined (1) the causes for the overpayments were clerical errors made by a third-party
relocation service no longer used by TVA; (2) TVA recently began using a different third-
party relocation service; and (3) the Program Manager, Relocation Services, will be
auditing the relocation invoices. We also confirmed all of the overpaid funds have been
collected.

This report does not include any recommendations and is to be used for informational
purposes only. Accordingly, no response is necessary.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

                                   -        -       -        -        -



1
    Of the 58 files, 44 were randomly selected and 14 were judgmentally selected because they exceeded the
    maximum allowance amount.
2
    A file is defined as a payout for a single-living allowance approval. There may be multiple files per
    employee.
3
    A duplicate reimbursement statement states that neither the employee nor his/her immediate family have
    accepted, and will not accept, duplicate reimbursement for relocation expenses.
                                  TVA RESTRICTED INFORMATION
Kattherine J. Black
Pag
  ge 3
December 13, 2012



If you
   y have any  y questions oro wish to discuss our o bservations,, please con
                                                                            ntact Jake
Sta                          ons, at (423) 785-4812 o
   anford, Audittor, Evaluatio                      or Greg Stin
                                                               nson, Directoor, Evaluatio
                                                                                        ons,
at (865)
    (          367. We appreciate the courtesy an
          633-73                                    nd cooperation received from your sstaff
durring the evaluation.




Robert E. Martin
Ass
  sistant Inspe
              ector Genera
                         al
 (A
  Audits and Evaluations)
              E
ET 3C-K

JASS:FAJ
cc: Peyton T. Hairston, Jrr., WT 7B-K
     Janet C. Herrin,
              H       WT 7A-K
     Joseph J. Hoagland, WT
                          W 7C-K
     Tom Kilgore, WT 7B-KK
     Richard W.
              W Moore, ETT 4C-K
     Emily J. Reynolds,
              R         OC
                         CP 1L-NST
     Robert B. Wells, WT 9B-K
                         9
     Andrea L. Williams, WT
                         W 9B-K
     OIG File No:
              N 2012-147  776




                              TVA REST
                                     TRICTED INF
                                               FORMATION
